<html>
<title> - EXPRESSING PROFOUND CONCERN ABOUT THE ONGOING POLITICAL, ECONOMIC, SOCIAL AND HUMANITARIAN CRISIS IN VENEZUELA, URGING THE RELEASE OF POLITICAL PRISONERS, AND CALLING FOR RESPECT OF CONSTITUTIONAL AND DEMOCRATIC PROCESSES; AND THE NICARAGUA INVESTMENT CONDITIONALITY ACT (NICA) OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  EXPRESSING PROFOUND CONCERN ABOUT THE ONGOING POLITICAL, ECONOMIC, 
  SOCIAL AND HUMANITARIAN CRISIS IN VENEZUELA, URGING THE RELEASE OF 
  POLITICAL PRISONERS, AND CALLING FOR RESPECT OF CONSTITUTIONAL AND 
 DEMOCRATIC PROCESSES; AND THE NICARAGUA INVESTMENT CONDITIONALITY ACT 
                             (NICA) OF 2016
=======================================================================

                                  MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                       H. Res. 851 and H.R. 5708

                               __________

                           SEPTEMBER 15, 2016

                               __________

                           Serial No. 114-234

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ___________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE  
21-545PDF                       WASHINGTON : 2016                        
_________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                            -----------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
DANIEL DONOVAN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 851, Expressing profound concern about the ongoing 
  political, economic, social and humanitarian crisis in 
  Venezuela, urging the release of political prisoners, and 
  calling for respect of constitutional and democratic processes.     2
  Amendment in the nature of a substitute to H. Res. 851 offered 
    by the Honorable Jeff Duncan, a Representative in Congress 
    from the State of South Carolina, and chairman, Subcommittee 
    on the Western Hemisphere....................................     8
H.R. 5708, To oppose loans at international financial 
  institutions for the Government of Nicaragua unless the 
  Government of Nicaragua is taking effective steps to hold free, 
  fair, and transparent elections, and for other purposes........    15
  Amendment in the nature of a substitute to H.R. 5708 offered by 
    the Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................    28

                                APPENDIX

Markup notice....................................................    46
Markup minutes...................................................    47
Markup summary...................................................    48




 
  EXPRESSING PROFOUND CONCERN ABOUT THE ONGOING POLITICAL, ECONOMIC, 
  SOCIAL AND HUMANITARIAN CRISIS IN VENEZUELA, URGING THE RELEASE OF 
  POLITICAL PRISONERS, AND CALLING FOR RESPECT OF CONSTITUTIONAL AND 
  DEMOCRATIC PROCESSES; AND THE NICARAGUA INVESTMENT CONDITIONALITY ACT 
                             (NICA) OF 2016

                              ----------                              


                      Thursday, September 15, 2016

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. The subcommittee will come to order. Pursuant 
to notice, we meet today to mark up two bipartisan measures and 
I think this is the first markup of this subcommittee since I 
have been the chairman, so kind of a momentous day.
    As members, we were notified previously to ensure that we 
can move expeditiously to our hearing. We will consider today's 
items en bloc, and so without objection the following items 
provided to your offices earlier this week will be considered 
en bloc and considered as read: House Resolution 851, 
expressing profound concern about the ongoing political, 
economic, social, and humanitarian crisis in Venezuela, and the 
Duncan Amendment 73 in the nature of a substitute 
to<greek-l>, deg. H.R. 851. Members will please note that two 
words have been stricken from page 3 per agreement with the 
majority and minority from the ANS that was previously 
circulated. We apologize for that.
    The second bill be H.R. 5708, the Nicaraguan Investment 
Conditionality Act of 2016 and also the Sires Amendment No. 16 
in the nature of a substitute, H.R. 5708.
    [The information referred to follows:]  
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Duncan. Without objection, all members may have 5 days 
to submit statements and materials for the record. I will now 
recognize myself to speak on today's measures.
    As the co-sponsor of both pieces of legislation, I want to 
applaud the efforts of Representatives Wasserman Schultz and 
Ros-Lehtinen for highlighting the U.S. congressional concerns 
about the events in Venezuela and Nicaragua and for their 
leadership on both of these bills. This subcommittee has held 
two hearings on Venezuela. And we will hold a hearing today on 
Nicaragua following up the markup.
    Ranking Member Sires and I have also worked closely 
together in our authoring a letter last month to the State 
Department and the Treasury Department. This letter was signed 
by over 30 Members of Congress and highlights the need to 
prioritize Venezuela. These two bills are very timely, given 
the deteriorating situations in both countries.
    We are all familiar with the humanitarian and political 
crisis in Venezuela right now. This week, a new study found 
that at least 15 percent of Venezuelans are eating out of the 
trash. Almost 90 percent of people fear running out of food. 
More than 1.7 million Venezuelans have fled to Colombia to buy 
food and medicines since the reopening of that border crossing 
last month. Further, although Venezuelan people have made their 
wishes known through protest after protest after protest for a 
recall referendum to be held this year, President Maduro has 
suppressed protesters chanting ``We want food'' and refused to 
hold the referendum this year.
    I strongly support H. Res. 851 and my amendment in the 
nature of a substitute highlights the continuing imprisonment 
of U.S. citizens, Francisco Marquez and Josh Holt; recognizes 
that democracy is failing in Venezuela; and acknowledges the 
efforts of the former President of Spain, Panama, and the 
Dominican Republic in calling for a dialogue and efforts of 15 
countries in the region calling for Venezuela to hold a recall 
referendum without delay.
    My amendment also urges President Obama to continue to 
stand in solidarity with the Venezuelan people by advocating 
that President Maduro hold a free and fair recall referendum by 
the end of this year; release all political prisoners, 
including U.S. citizens from prison; adhere to democratic 
principles; and permit the delivery of emergency food and 
medicine.
    In Nicaragua, the people will go to the polls on November 
6th in an election where President Ortega is running for a 
consecutive third term. The opposition has been stripped of 
their leading candidates and the First Lady is on the Vice 
Presidential ballot, even though Nicaragua's Constitution bars 
those related to the President from being a candidate. And 
Ortega has refused to allow international election observers.
    I am deeply concerned about the impacts of President 
Ortega's consolidation of power and I fully support this 
legislation authorized by Representative Ros-Lehtinen. Since 
today, there appears to be no cost to Ortega for his actions 
undermining the democracy and the rule of law in the country in 
pursuit of his own interests.
    It is my hope that this legislation will support Nicaraguan 
people by encouraging Ortega to take steps to begin to show a 
respect for democracy, respect for free and fair elections, 
respect for the rule of law and respect for human rights in the 
country.
    So I will now recognize the ranking member for his comments 
on today's measures.
    Mr. Sires. Thank you to my good friend Chairman Duncan and 
Chairman Emeritus Ros-Lehtinen for their efforts in bringing 
attention to the political and humanitarian crisis in Venezuela 
and to the authoritarian policies of Nicaraguan's President, 
Daniel Ortega.
    I also want to thank my colleagues on the committee and the 
staff from both sides of the aisle who have worked hard to 
support the subcommittee's efforts. We are here today to mark 
up two timely and bipartisan pieces of legislation, working to 
combat the constant, oppressive tactics of both Maduro and 
Ortega's regime.
    The resolution before us, H. Res. 851, is in response to 
the deterioration of basic governance and the resulting 
humanitarian crisis currently taking place in Venezuela. Under 
Maduro's government, millions of families, women, and children 
are suffering from severe shortages of essential medicines, 
fuel, and basic needs. It is frustrating to see the Venezuelan 
people suffer and struggle to find basic food items when 
Venezuela is home to one of the world's largest oil reserves 
and has the potential to prosper.
    The crisis in Venezuela has also been exacerbated by 
widespread public corruption and the alarming level of violence 
in the country. On the corruption front, dozens of public 
officials are suspected of involvement in drug trafficking and 
money laundering. The U.S. Justice and Treasury Departments, as 
well as DEA, each have ongoing investigations involving 
Venezuela's officials.
    Crime and violence have also reached alarming high levels. 
According to the U.N. Office on Drug and Crime, Caracas has one 
of the highest per capita homicide rates in the world at 120 
murders per 100,000 citizens. Despite the massive shortages in 
basic essentials and the resulting violence, Maduro's 
government refuses to allow humanitarian aid from the 
international community into the country.
    Maduro also has refused to release the more than 80 
political prisoners held by his government. These include 
former Mayor Leopoldo Lopez and Daniel Ceballos and U.S. 
citizens Josh Holt and Francisco Marquez. In May of this year, 
the OAS invoked Article XX of the Inter-American Democratic 
Charter which called on the OAS to assess the situation in 
Venezuela proving that this is not a U.S. conspiracy as 
Venezuela falsely tries to claim, but an urgent concern to all 
of our neighbors in the Western Hemisphere.
    H. Res. 851 loudly and clearly voices concern of this 
Congress regarding the widespread shortages in Venezuela, 
urging the Maduro government to allow the delivery of 
international aid and support the current actions taking place 
in the OAS to restore true democracy to Venezuela.
    It is my sincere hope that the administration will 
aggressively support this resolution and instruct the 
appropriate Federal agencies to do all they can to hold 
Venezuela's officials accountable for all the violations of 
U.S. laws and human rights.
    Regarding the authoritarian policies of Daniel Ortega in 
Nicaragua, I am proud to be a cosponsor of the Nicaraguan 
Investment Conditionality Act. This legislation calls on the 
U.S. to oppose loans at international financial institutions 
for Nicaragua until the country takes effective steps to hold 
free, fair, and transparent elections.
    Since coming to the Presidency a decade ago, Ortega has 
always seen a steady decline in political rights, civil rights, 
and civil liberties in Nicaragua. For example, in 2009, Ortega 
circumvented the legislation and had the Supreme Court packed 
with his supporters eliminate Presidential term limits. In 
2011, he won election in an election widely deemed by 
international and domestic observers as fraudulent. These 
undemocratic tactics led to the Millennium Challenge 
Corporation ending its 5-year $175 million compact with the 
country. Along with its lack of political transparency, Ortega 
has also refused to demonstrate fiscal transparency. Since 
2012, Nicaragua has not met any of the international standards 
for fiscal transparency.
    According to the State Department's 2015 Fiscal 
Transparency Report, the Ortega administration did not publicly 
account for its assistance received from Venezuela, nor did it 
audit the majority of Nicaragua's state-owned enterprises. Such 
fiscal lapses allow public corruption to thrive.
    It has long been the policy of the United States to support 
the rule of law, an independent judiciary, democracy, and free, 
fair, and transparent elections.
    I believe that H.R. 5708 will help bring these critical 
elements of freedom and democracy to Nicaragua. If signed into 
law, the NICA Act will mean that U.S. representatives at the 
International Financial Institution will oppose all loans or 
other utilization of funds for Nicaragua unless and until the 
country takes effective steps to return to a more democratic 
system, including transparent elections, and greater respect 
for civil rights.
    Again, my thanks to all who have worked on this important 
piece of legislation. I urge my colleagues to support H. Res. 
851 and H.R. 5708. Thank you.
    Mr. Duncan. I thank the ranking member for his words and 
his help on this and his amendment.
    Do any other members seek recognition to speak on today's 
business?
    Hearing no further request for recognition, the Chair will 
now move that the subcommittee favorably report the items 
considered en bloc to the full committee as amended.
    All those in favor say aye.
    All opposed no.
    In the opinion of the Chair, the ayes have it and the 
motion is approved and H.R. 5708 and House Resolution 851 are 
reported favorably to the full committee as amended.
    I want to thank our members and staff for all their 
assistance and cooperation on today's markup and the 
subcommittee business meeting will stand adjourned and then we 
will move right into the hearing. So we will stand adjourned.
    [Whereupon, at 10:38 a.m., the subcommittee was adjourned.]

                           

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
